HHS/OIG, Audit -"Review Of Title XXI Hawaii State Children's Health Insurance Program,"(A-09-03-00054)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review Of Title XXI Hawaii State Children's Health Insurance Program," (A-09-03-00054)
March 11, 2004
Complete
Text of Report is available in PDF format (1.47 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We found that the State overstated its State Children's Health Insurance Program (SCHIP) expenditures, incorrectly claimed
managed care expenditures, and incorrectly reported and claimed SCHIP fee-for-service expenditures.  Also, some beneficiaries
did not meet program eligibility requirements.  We recommend that the State credit the SCHIP program for $1,407,199
of overstated expenditures, implement claims processing controls to identify SCHIP expenditures, work with the Centers
for Medicare and Medicaid Services to adjust Medicaid quarterly expenditures reports for prior periods, and educate its
staff regarding eligibility requirements for the SCHIP program.